August 23, 2001

SUZANNE F. MEDVIDOVICH
SENIOR VICE PRESIDENT, HUMAN RESOURCES

SUBJECT:      Audit Report - National Capping Report on the Postal Service Violence
              Prevention and Response Programs (Report Number LB-AR-01-020)

This report summarizes the results of audits performed by a contractor and the Office of
Inspector General (OIG) to assess the Postal Service violence prevention and response
programs in 25 districts (Project Number 01JA001LB000). More specifically, this report
summarizes the conditions found in the 25 districts and focuses on management’s
actions taken or planned as corrective actions to correct the issues identified and
implement recommendations made in our reports.

On the basis of these audits, we concluded that none of the 25 districts fully
implemented required controls to reduce the potential for violence. We found that each
of the districts generally followed the Threat Assessment Team Guide when reacting to
incidents of violence, but did not fully implement strategies to prevent violence.
However, 15 of the 25 districts did not fully implement the Crisis Management Plan for
Incidents of Violence in the Workplace. District officials stated they did not follow many
of the strategies because either they were not aware of requirements included in the
guides or believed the guides were not mandatory, or applicable to all situations in their
district. Postal Service Headquarters management stated that no one should view
critical programs as optional and agreed to clarify the mandatory aspects of the guide.
We concluded that districts not fully following these guidelines might not be as effective
in preventing violence.

Each of the 25 reports included recommendations to district officials and area vice
presidents for corrective action. While district and area managers generally disagreed
with some of the findings in the reports, they all provided corrective actions taken or
planned which we considered responsive to the recommendations we made. In
addition, an Office of Employee Resource Management official informed us that they
are establishing cross-functional teams to develop specific tasks for improving the
violence prevention and response programs, and plan to revise the Threat Assessment
Team Guide.
This report does not contain recommendations. However, management provided a
response, which included an update on progress made on initiatives to improve the
Postal Service violence prevention and response programs. Management’s comments
are included, in their entirety, in Appendix B to this report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions, please contact Joyce Hansen, acting deputy assistant
inspector general, Oversight and Business Evaluation, or me at (703) 248-2300.



Ronald K. Stith
Assistant Inspector General
 for Oversight and Business Evaluations

Attachment

cc: Willaim A. Campbell
    Anthony J. Vegilante
    John R. Gunnels
National Capping Report on the Postal Service                            LB-AR-01-020
 Violence Prevention and Response Programs


                                   TABLE OF CONTENTS

Executive Summary                                                            i

Part I

Introduction

    Background                                                               1
    Objective, Scope, and Methodology                                        2
    Prior Audit Coverage                                                     3

Part II

Audit Results

    Potential for Violence in the Districts                                  4
       Physical Security Reviews                                             5
       Climate Indicators                                                    6
       Threat Assessment Team Orientation                                    7
       Case Management                                                       8
       Measurement of Threat Assessment Team Performance                     9
       Violence Awareness Training                                          10
       Crisis Management Plans                                              11
       Corrective Actions by Management at Postal Service Headquarters      11

Appendix A. Audit Reports                                                   13
Appendix B. Management’s Comments                                           15




                                         Restricted Information
National Capping Report on the Postal Service                                        LB-AR-01-020
 Violence Prevention and Response Programs


                                   EXECUTIVE SUMMARY
 Introduction                   This report summarizes the results of audits performed by a
                                contractor and the Office of Inspector General (OIG) to
                                review the Postal Service’s violence prevention and
                                response programs in 25 districts. More specifically, this
                                report summarizes the conditions found in the 25 districts
                                and focuses on management’s actions taken or planned to
                                correct the issues identified and implement
                                recommendations made in our reports. Our overall
                                objective was to determine whether the 25 districts
                                implemented Postal Service’s policies regarding violence
                                prevention and response programs.

 Results in Brief               While we found that each of the districts generally complied
                                with some of the strategies outlined in the Threat
                                Assessment Team Guide, when reacting to incidents of
                                violence, none of the 25 districts fully implemented
                                strategies to prevent violence from occurring. Furthermore,
                                15 of the 25 districts did not fully follow the procedures
                                outlined in the Crisis Management Plan for Incidents of
                                Violence in the Workplace. District officials generally
                                indicated they did not follow many of the procedures
                                because they were not aware of the guides’ requirements
                                or believed the guides were not mandatory or applicable to
                                all situations in their districts. Postal Service Headquarters
                                management stated that no one should view critical
                                programs as optional and agreed to clarify the mandatory
                                aspects of the guide.

                                As a result, we believe that districts not fully following these
                                guidelines may not be as effective in preventing violence at
                                their facilities. We noted that violence could increase stress
                                and lower employee morale. Organizationally, it can
                                diminish credibility, decrease productivity, and may lead to
                                damage of property.

                                We recommended that all districts implement controls to
                                improve the effectiveness of their violence prevention and
                                response programs. To address the OIG’s
                                recommendations, area vice presidents and district
                                managers outlined their planned and implemented actions
                                to make improvements in districts’ violence prevention and
                                response programs. We considered these actions
                                responsive to our recommendations and we have noted



                                                    i
                                         Restricted Information
National Capping Report on the Postal Service                                         LB-AR-01-020
 Violence Prevention and Response Programs


                                examples of their actions in the appropriate sections in this
                                report. For example, districts acted on our
                                recommendations by:

                                    •   Conducting the required annual security reviews.

                                    •   Implementing procedures to proactively monitor and
                                        evaluate climate indicators.

                                    •   Providing 2-day orientation training to all threat
                                        assessment team members.

                                    •   Implementing procedures to ensure appropriate case
                                        management.

                                    •   Establishing threat assessment team performance
                                        measures.

                                    •   Providing required violence awareness training.

                                    •   Ensuring the customized crisis management plans
                                        were on site at district facilities.

                                Additionally, the Office of Employee Resource Management
                                established cross-functional teams to improve violence
                                prevention and response programs, including revising the
                                Threat Assessment Team Guide or developing a
                                comprehensive supplement that identified the required
                                elements of the violence prevention and response programs
                                that must be followed. The acting vice president of
                                Employee Resource Management stated this will ensure
                                consistent program implementation, allow districts flexibility
                                for certain situations, and establish accountability for
                                managers responsible for threat assessment and crisis
                                management teams. Accordingly, this report does not
                                contain additional recommendations requiring management
                                response.

 Summary of                     The senior vice president, Human Resources, provided a
 Management’s                   response, which included an update on progress made on
 Comments                       initiatives to improve the Postal Service violence prevention
                                and response program, in the areas of guidance, training,
                                and physical security reviews. Specifically, management
                                stated that changes to the program guide were made to
                                emphasize mandatory elements of the program.


                                                    ii
                                         Restricted Information
National Capping Report on the Postal Service                                   LB-AR-01-020
 Violence Prevention and Response Programs


                                Additionally, management noted that efforts were completed
                                to ensure that threat assessment team members received
                                workplace environment improvement training and the
                                Inspection Service continued their efforts to address
                                accountability for security reviews. The response is
                                included, in its entirety, in Appendix B of this report.

 Overall Evaluation of          Management’s comments were responsive to our report.
 Management’s
 Comments




                                                   iii
                                         Restricted Information
National Capping Report on the Postal Service                                                            LB-AR-01-020
 Violence Prevention and Response Programs


                                               INTRODUCTION
    Background                        The Postal Service recognizes the importance of ensuring
                                      the safety of its employees by creating and maintaining a
                                      work environment that is violence-free. This concept
                                      emphasizes using a viable workplace violence prevention
                                      program as a first step in helping to ensure a violence-free
                                      workplace. An effective program depends on a universal
                                      zero tolerance policy and plan that is consistently
                                      implemented for the management of threats, assaults, and
                                      other inappropriate workplace behavior.

                                      The Postal Service established the following initiatives and
                                      strategies to prevent and minimize the potential risk for
                                      violence in the workplace:

                                      •   The Joint Statement on Violence and Behavior in the
                                          Workplace states that it is the Postal Service’s position
                                          that violent and inappropriate behavior will not be
                                          tolerated by anyone at any level of the Postal Service.

                                      •   The Threat Assessment Team Guide, Publication 108,
                                          and the Crisis Management Plan for Incidents of
                                          Violence in the Workplace, Publication 107,1 require
                                          districts to develop appropriate threat assessment and
                                          crisis management teams, as well as team plans of
                                          operation.

                                      •   The Administrative Support Manual requires security
                                          control officers or their designees to conduct annual
                                          physical security reviews at all facilities.

                                      The Office of Inspector General (OIG) engaged Williams,
                                      Adley & Company, LLP to assist in conducting these audits
                                      and reporting on violence prevention and response efforts
                                      within 25 Postal Service districts. The OIG provided
                                      technical support, statistical projections, and quality
                                      assurance reviews. This report summarizes the conditions
                                      found in the 25 districts and focuses on management’s
                                      actions taken or planned to address the issues identified
                                      and implement recommendations made in our report.



1
    The Crisis Management Plan for Incidents of Violence in the Workplace is currently under revision.



                                                            1
                                                 Restricted Information
National Capping Report on the Postal Service                                      LB-AR-01-020
 Violence Prevention and Response Programs




 Objective, Scope, and          Our overall objective was to determine whether the
 Methodology                    25 districts selected implemented Postal Service policies
                                regarding violence prevention and response programs. This
                                report summarizes the conditions found in the 25 districts
                                and focuses on management’s actions taken or planned to
                                address the issues and recommendations.

                                The OIG and its contractor reviewed applicable laws,
                                policies, procedures, climate assessments, and other
                                documents, such as the Postal Inspection Service’s Assault
                                and Threat Incident Reports and investigative worksheets.
                                We also reviewed United States General Accounting Office
                                (GAO) reports related to labor-management issues.

                                The OIG randomly selected 25 districts located in the Postal
                                Service’s Mid Atlantic, Pacific, Southeast, and Western
                                Areas. (See Appendix A). Williams, Adley & Company,
                                LLP, conducted audits of 19 districts and OIG conducted the
                                audits of the remaining 6 districts. The OIG provided
                                technical support, statistical projections, and quality
                                assurance reviews for the audit work performed by Williams,
                                Adley & Company, LLP.

                                The OIG or the contractor interviewed Postal Service
                                officials in each of the 25 districts, four area offices, and
                                headquarters to obtain information about the Postal Service
                                workplace environment, and the policies and procedures
                                implemented to ensure a safe and violence-free workplace.
                                The OIG also interviewed an Employee Resource
                                Management official to obtain information on planned and
                                implemented improvements to the programs.

                                These audits were conducted in accordance with generally
                                accepted government auditing standards. The contractor
                                conducted these audits in accordance with standards
                                established by the American Institute of Certified Public
                                Accountants and Government Auditing Standards utilizing
                                procedures agreed to by the OIG. Additionally, we included
                                tests of internal controls as were considered necessary
                                under the circumstances. The OIG and the contractor
                                discussed the conclusions and observations with
                                appropriate management officials and included their
                                comments, where appropriate.



                                                    2
                                         Restricted Information
National Capping Report on the Postal Service                                       LB-AR-01-020
 Violence Prevention and Response Programs




 Prior Audit Coverage           This audit was self initiated based on results found in OIG
                                reviews of violence prevention and response programs in
                                the Milwaukee and Suncoast Districts, and the evaluation of
                                the Postal Service criteria for workplace violence prevention
                                and response programs.

                                In the two district reviews, OIG found that the districts did
                                not follow many of the violence prevention policies and
                                procedures outlined in the Threat Assessment Guide. OIG
                                considered management’s planned or implemented actions
                                responsive to the specific issues identified in the report.

                                The OIG’s evaluation of Postal Service criteria, revealed
                                that the violence prevention and response criteria are
                                adequate to assist management in the implementation of
                                programs, reduce the risk of violence in the workplace, and
                                effectively respond to work disruptions from incidents of
                                violence in the workplace. However, we noted that the
                                Postal Service needed to include language in the violence
                                prevention and response program criteria to ensure full
                                compliance with the criteria. Management generally agreed
                                with the reports’ findings and recommendations and stated
                                that clarification of critical portions of the guide was needed
                                to ensure that no one viewed critical programs as optional.




                                                    3
                                         Restricted Information
National Capping Report on the Postal Service                                        LB-AR-01-020
 Violence Prevention and Response Programs


                                        AUDIT RESULTS
 Potential for Violence         On the basis of our audits, we concluded that none of the
 in the Districts               25 districts fully implemented required controls to reduce the
                                potential for violence. While each of the districts generally
                                complied with the Threat Assessment Team Guide when
                                reacting to incidents of violence, they did not fully implement
                                strategies to prevent violence. Furthermore, 15 of the
                                25 districts did not fully comply with the Crisis Management Plan
                                for Incidents of Violence in the Workplace.

                                Generally, each of the 25 districts:

                                •   Established a threat assessment team.

                                •   Developed and communicated a zero tolerance policy.

                                •   Developed an action plan to manage threats.

                                However, the reviews disclosed that of the 25 districts:

                                •   Eighteen did not conduct annual physical security reviews at
                                    all district facilities.

                                •   Twenty-five did not proactively monitor and evaluate climate
                                    indicators.

                                •   Thirteen did not provide the required 2-day orientation
                                    training for all threat assessment team members.

                                •   Twenty did not fully engage in case management.

                                •   Twelve did not fully document case management efforts.

                                •   Twenty-four did not measure team performance.

                                •   Twenty-five did not mandate violence awareness training.

                                •   Fifteen did not ensure that a local, customized crisis
                                    management plan was on site at all district facilities.

                                District officials generally stated they did not follow many of the
                                policies and procedures because they were not aware of the
                                guides’ recommendations or believed the guides were not
                                applicable to all situations in their district. We concluded that


                                                    4
                                         Restricted Information
National Capping Report on the Postal Service                                                              LB-AR-01-020
 Violence Prevention and Response Programs


                                     districts not fully implementing these guidelines were not as
                                     prepared to prevent incidents of violence. We noted that
                                     violence could increase stress and lower employee morale.
                                     Organizationally, it can diminish credibility, decrease
                                     productivity, and may lead to damage of property.

                                     Regarding the differences in interpretation of the Threat
                                     Assessment Team Guide, the OIG viewed the publication as
                                     mandatory based on the importance of the guidance it provides,
                                     particularly in the areas of violence prevention. In addition,
                                     when responding to a 1998 OIG audit report, which
                                     recommended the full implementation of the policies and
                                     procedures outlined in the guide, at one Postal Service district,
                                     Postal Service Headquarters management agreed with the
                                     recommendation and provided headquarters personnel to assist
                                     the district in the implementation.2

                                     We recommended that districts implement controls to improve
                                     the effectiveness of the districts’ violence prevention and
                                     response programs. To address OIG’s recommendations, area
                                     vice presidents, and district managers outlined their planned
                                     and implemented actions to make improvements in districts’
                                     violence prevention and response programs. We have noted
                                     their actions in the appropriate sections in this report.

                                     In addition, the Office of Employee Resource Management
                                     established cross-functional teams to develop tasks to make
                                     improvements in the violence prevention and response
                                     programs and the workplace environment.

    Physical Security                We found that 18 districts did not conduct annual physical
    Reviews                          security reviews in all facilities. The Postal Service
                                     Administrative Support Manual, Chapter 2, Section 27, requires
                                     the security control officer or a designee to conduct annual
                                     physical security reviews at all Postal Service facilities to ensure
                                     that the appropriate attention is given to security issues.3
                                     District officials stated that they did not perform physical security
                                     reviews in all facilities because they were unaware of the
                                     requirement to perform the reviews or that they conducted the
                                     reviews, but did not maintain adequate documentation to
                                     support them. The lack of physical security reviews at Postal

2
  Violence Prevention Policies and Procedures, Milwaukee District Compliance, September 30, 1998, (Report
Number LM-AR-98-002.)
3
  The chief postal inspector is designated as the security officer for the Postal Service. The security control officers
located at each Postal Service facility liaison with the Postal Inspection Service on all security matters.



                                                           5
                                                Restricted Information
National Capping Report on the Postal Service                                                          LB-AR-01-020
 Violence Prevention and Response Programs


                                     Service facilities may allow the loss or destruction of Postal
                                     Service property and the mail to go undetected.

                                     In response to our recommendations, these districts provided
                                     actions taken and planned to correct the issues identified. For
                                     example, in a January 2001 memorandum to district managers
                                     in the Western Area, the Western Area vice president, directed
                                     security control officers to conduct physical security reviews and
                                     maintain supporting documentation to support the reviews. The
                                     Spokane District manager stated that physical security reviews
                                     were completed in June 1999 for larger offices with 26 or more
                                     employees. The Portland District formed a physical security
                                     control team and subsequently conducted the reviews for fiscal
                                     year (FY) 1999 and 2000. In February 2001, the acting vice
                                     president, Employee Resource Management informed OIG that
                                     a cross-functional team is also reviewing facility security issues.

                                     We believe the districts’ planned and implemented actions are
                                     responsive to the recommendations and address the issues
                                     identified in our reports.

    Climate Indicators               We found that none of the 25 districts proactively monitored and
                                     evaluated climate indicators to identify and follow-up on events
                                     that could escalate the potential for violence because district
                                     officials were not aware of the requirement. As a result, controls
                                     associated with identifying and assessing indicators were not
                                     used to reduce the potential for violence in the workplace.

                                     The Threat Assessment Team Guide outlines several climate
                                     indicators that are relevant for review when making such
                                     determinations. Among those indicators are grievances, Equal
                                     Employment Opportunity complaints, referrals to the Employee
                                     Assistance Program, and labor-management relationships.4
                                     The districts could improve their process for evaluating
                                     workplace climates by proactively identifying and monitoring
                                     work environments that have the potential for violence.
                                     Reviewing and evaluating the climate indicators mentioned
                                     above on a periodic basis could provide valuable information
                                     about conflict in district facilities.

                                     In response to our recommendations, these districts provided
                                     actions taken and planned to correct the issues identified.
                                     Specifically, the Pacific Area Human Resources manager

4
    We considered the results of the Voice of the Employee survey as an indicator of labor-management relationships.



                                                           6
                                                Restricted Information
National Capping Report on the Postal Service                                      LB-AR-01-020
 Violence Prevention and Response Programs


                                informed OIG in September 2000 that climate assessments
                                were conducted to improve the workplace climate. The area
                                office would provide districts with updated climate indicator data
                                every accounting period. The San Jose District manager noted
                                that the performance cluster would use Equal Employment
                                Opportunity complaints, sick leave usage, and the Voice of the
                                Employee Survey to monitor and evaluate the climate. Also, the
                                Santa Ana District manager told the OIG that the climate
                                indicator data provided to the employee and workplace
                                intervention analyst every accounting period would be made
                                available to the threat assessment team members for review at
                                each meeting.

                                According to the acting vice president, Employee Resource
                                Management, a cross-functional team is currently reviewing the
                                workplace climate indicators to determine what data should be
                                provided to the threat assessment teams to assist in monitoring
                                workplace climates in facilities.

                                We believe the districts’ planned and implemented actions are
                                responsive to the recommendations and address the issues
                                identified in our reports.

 Threat Assessment              We found that 13 of the 25 districts did not provide the 2-day
 Team Orientation               orientation training for all threat assessment team core
                                members as required in the Threat Assessment Team Guide.
                                Many reasons were given for not providing the orientation
                                training such as conflicting schedules that prevented attendance
                                at orientation and not having a process in place to ensure
                                training for new members. A threat assessment team that is not
                                adequately trained cannot be effective in establishing a violence
                                prevention and response program that will reduce the risk of
                                violence in the workplace.

                                In response to our recommendations, these districts provided
                                actions taken and planned to correct the issues identified. For
                                example, in a September 2000 memorandum, the Southeast
                                Area vice president directed district managers to assure that all
                                threat assessment team members received the required 2-day
                                orientation. The North Florida District manager informed OIG
                                that all threat assessment team members would receive the
                                2001 threat assessment orientation by accounting period 2 of
                                FY 2001. In addition, the South Georgia District manager
                                committed to provide the orientation to all threat assessment
                                team members by October 2000.


                                                    7
                                         Restricted Information
National Capping Report on the Postal Service                                        LB-AR-01-020
 Violence Prevention and Response Programs



                                According to the acting vice president, Employee Resource
                                Management, the threat assessment team orientation is critical
                                to each team member functioning in his or her role on the team.
                                She stated that headquarters personnel could assist the teams
                                in getting their team members trained.

                                We believe the districts’ planned and implemented actions are
                                responsive to the recommendations and address the issues
                                identified in our reports.

 Case Management                Of the 25 districts, 20 did not fully engage in case management
                                of all threats that occurred within their district during the review
                                period, June 1, 1997, through June 30, 1999, as required by the
                                Threat Assessment Team Guide. District officials provided
                                various reasons for not engaging in case management such as
                                they expected supervisors and facility managers to monitor
                                reported threats and/or they were not aware of the requirements
                                in the guide. A district that does not fully identify and investigate
                                all threats and follow up on risk abatement plans could
                                contribute to an unsafe workplace for employees.

                                The Threat Assessment Team Guide requires the threat
                                assessment team to engage in case management of all threats,
                                including assessing the risks posed by the overall
                                circumstances of a threat, developing a risk abatement plan,
                                and engaging in follow up. Although the guide recommends
                                that documentation be kept to a minimum, it lists certain
                                information that must be documented, including: risk
                                assessment findings on each case discussed, risk priority
                                ratings assigned, and risk abatement actions.

                                These 20 threat assessment teams did not engage in case
                                management for all of the employee-on-employee threats
                                investigated by the Postal Inspection Service. Most district
                                officials stated that the Postal Inspection Service did not report
                                all threats to the threat assessment team. Additionally, 12 of
                                these 20 districts did not fully document their case management
                                efforts. That is, district case files were nonexistent or did not
                                include documentation of risk assessment, risk abatement
                                plans, and follow-up results.

                                In response to our recommendations, these districts provided
                                actions taken and planned to correct the issues identified. For
                                example, in September 2000, the Mid Atlantic Area vice



                                                    8
                                         Restricted Information
National Capping Report on the Postal Service                                      LB-AR-01-020
 Violence Prevention and Response Programs


                                president stated that each of the six districts reviewed in his
                                area has some level of case management. He stated, however,
                                the area office would issue guidance to ensure consistent and
                                effective case management of all threats, including assessing
                                risk, developing abatement plans, and performing follow up.
                                The Mississippi District manager stated that the district would
                                modify and enhance its current suspense/tickler file system to
                                better monitor the results of risk abatement plans. The system
                                will be fully implemented on November 15, 2000.

                                The acting vice president of Employee Resource Management
                                informed OIG that a team is currently reviewing this issue to
                                improve communication with the Postal Inspection Service and
                                the teams to obtain threat data. In addition, the acting vice
                                president stated that another team is reviewing how to assist in
                                developing plans to help teams improve case management.

                                We believe the districts’ planned and implemented actions are
                                responsive to the recommendations and address the issues
                                identified in our reports.

 Measurement of Threat          We found that 24 districts did not establish threat assessment
 Assessment Team                team performance measures as required by the Threat
 Performance                    Assessment Team Guide. District officials told us that their
                                team had been recently established and had not developed
                                performance measures, were reviewing the guide to determine
                                what to measure, or were informally assessing their progress
                                based on the actions taken to defuse situations. Without
                                performance measures, teams could not objectively measure
                                the effect their violence prevention efforts had on the workplace
                                climate and operations.

                                Performance measures help reduce the risk of violence in the
                                workplace because they provide objective information to
                                management on baseline performance, and measure the effect
                                of the violence prevention program. Objective data can be
                                obtained through the use of surveys, the numbers and types of
                                threats and assaults, a tracking system, and post-incident
                                analysis of each violent incident.

                                In response to our recommendations, these districts provided
                                actions taken and planned to correct the issues identified. For
                                example, the Big Sky District management informed OIG that
                                the threat assessment team survey is being utilized to measure
                                team performance. In addition, the Long Beach District told OIG



                                                    9
                                         Restricted Information
National Capping Report on the Postal Service                                       LB-AR-01-020
 Violence Prevention and Response Programs


                                they used an informal performance evaluation process, but has
                                implemented a standardized evaluation form.

                                The acting vice president of Employee Resource Management
                                indicated that performance measures are currently being
                                reviewed to develop benchmarks to help teams know if they are
                                operating effectively.

                                We believe the districts’ planned and implemented actions are
                                responsive to the recommendations and address the issues
                                identified in our reports.

 Violence Awareness             None of the 25 districts provided workplace violence awareness
 Training                       training for district managers, supervisors, and craft employees
                                in accordance with the Threat Assessment Team Guide.
                                Districts officials told us that they did not consider the training
                                mandatory. Employees who have not received violence
                                awareness training may not be effective in preventing violence
                                in the workplace.

                                The Threat Assessment Team Guide states that every Postal
                                Service manager and supervisor should complete 8 hours of
                                workplace violence awareness training and 4 hours of follow-up
                                training. Training topics should include defusing a difficult
                                situation and providing effective supervision. In
                                September 1998, Postal Service management mandated 1 hour
                                of violence awareness training for craft employees, supervisors,
                                and managers.

                                In response to our recommendations, these districts provided
                                actions taken and planned to correct the issues identified. In
                                FY 2000, the Postal Service required 4 hours of workplace
                                environment training for all craft and management employees.
                                Additionally, all craft employees were required to receive 1 hour
                                of workplace violence prevention training. Each area vice
                                president informed OIG that all districts complied with this
                                mandate from Postal Service Headquarters in FY 2000.
                                Furthermore, according to the acting vice president of Employee
                                Resource Management, this training remains as part of the
                                Postal Service’s Strategic Focus for FY 2001. The San Jose
                                District began their workplace violence awareness training as
                                part of the new employee orientation in January 2000. In
                                addition, the Honolulu District provided craft employees with the
                                1-hour violence awareness training and is scheduled to provide
                                the managers with refresher violence training in FY 2001.



                                                   10
                                         Restricted Information
National Capping Report on the Postal Service                                          LB-AR-01-020
 Violence Prevention and Response Programs



                                The acting vice president of Employee Resource Management
                                indicated that follow-up training might not have occurred
                                because headquarters did not provide guidance and training
                                materials to the districts.

                                We believe the districts’ planned and implemented actions are
                                responsive to the recommendations and address the issues
                                identified in our reports.

 Crisis Management              We found that 15 districts did not ensure that a local,
 Plans                          customized crisis management plan was on site at all district
                                facilities as required by The Crisis Management Plan for
                                Incidents of Violence in the Workplace. Most officials said they
                                could not locate their copy of the plan or they never received a
                                copy of the plan. Crisis management plans prepare the crisis
                                management team to mobilize and respond effectively to an
                                actual crisis. Officials in district facilities that do not have plans
                                may be unable to take the appropriate action in the event of a
                                crisis.

                                In response to our recommendations, these districts provided
                                actions taken and planned to correct the issues identified. For
                                instance, the Mid Atlantic Area vice president informed OIG that
                                crisis management plans have been distributed to all installation
                                heads along with information on the purpose of the plan and its
                                necessity. Also, the Honolulu District stated that all installations
                                have been provided a standard plan and a crisis number at the
                                Honolulu processing center.

                                We believe the districts’ planned and implemented actions are
                                responsive to the recommendations and address the issues
                                identified in our reports.

 Corrective Actions by          To address workplace environment issues, the Postal Service
 Management at Postal           commissioned a study to examine all aspects of workplace
 Service Headquarters           violence in Postal Service facilities. The report prepared by the
                                United Stated Postal Service Commission for a Safe and
                                Secure Workplace made several recommendations to improve
                                the threat assessment and crisis management teams and the
                                workplace environment.

                                In December 2000, the Office of Employee Resource
                                Management established cross-functional teams, consisting of
                                staff from headquarters, area offices, management



                                                   11
                                         Restricted Information
National Capping Report on the Postal Service                                   LB-AR-01-020
 Violence Prevention and Response Programs


                                associations, and the labor unions, to develop tasks to
                                implement the report’s recommendations. The senior vice
                                president of Human Resource Management revised the Threat
                                Assessment Team Guide and accompanying training materials
                                that identified the elements of the violence prevention and
                                response programs that must be followed. Orientation and
                                training of threat assessment team members have been
                                scheduled and the workplace environment improvement
                                department will maintain an annual record of training.
                                Beginning in 1999, all employees were required to have 4 hours
                                of workplace environment improvement training and attendance
                                will be tracked locally and by the workplace environment
                                improvement department. In addition, the Inspection Service
                                continues to work on the issue of accountability for security
                                reviews.




                                                   12
                                         Restricted Information
National Capping Report on the Postal Service                             LB-AR-01-020
 Violence Prevention and Response Programs


                            APPENDIX A. AUDIT REPORTS
Review of the Violence Prevention and Response Programs in the Mississippi District
(LB-AR-00-004, September 29, 2000)

Review of the Violence Prevention and Response Programs in the South Georgia
District (LB-AR-00-005, September 29, 2000)

Review of the Violence Prevention and Response Programs in the South Florida District
(LB-AR-00-006, September 29, 2000)

Review of the Violence Prevention and Response Programs in the North Florida District
(LB-AR-00-007, September 29, 2000)

Review of the Violence Prevention and Response Programs in the Central Florida
District (LB-AR-00-008, September 29, 2000)

Review of the Violence Prevention and Response Programs in the Atlanta District
(LB-AR-00-009, September 29, 2000)

Review of the Violence Prevention and Response Programs in the Honolulu District
(LB-AR-01-001, December 11, 2000)

Review of the Violence Prevention and Response Programs in the San Jose District
(LB-AR-01-002, November 22, 2000)

Review of the Violence Prevention and Response Programs in the Santa Ana District
(LB-AR-01-003, November 22, 2000)

Review of the Violence Prevention and Response Programs in the Sacramento District
(LB-AR-01-004, November 22, 2000)

Review of the Violence Prevention and Response Programs in the Long Beach District
(LB-AR-01-005, November 22, 2000)

Review of the Violence Prevention and Response Programs in the Van Nuys District
(LB-AR-01-006, November 22, 2000)

Review of the Violence Prevention and Response Programs in the Mid-Carolinas
District (LB-AR-01-007, November 22, 2000)

Review of the Violence Prevention and Response Programs in the Richmond District
(LB-AR-01-008, November 22, 2000)




                                                   13
                                         Restricted Information
National Capping Report on the Postal Service                             LB-AR-01-020
 Violence Prevention and Response Programs


Review of the Violence Prevention and Response Programs in the Greater South
Carolina District (LB-AR-01-009, November 22, 2000)

Review of the Violence Prevention and Response Programs in the Greensboro District
(LB-AR-01-010, November 22, 2000)

Review of the Violence Prevention and Response Programs in the Kentuckiana District
(LB-AR-01-011, November 22, 2000)

Review of the Violence Prevention and Response Programs in the Appalachian District
(LB-AR-01-012, November 22, 2000)

Review of the Violence Prevention and Response Programs in the Portland District
(LB-AR-01-015, March 29, 2001)

Review of the Violence Prevention and Response Programs in the Las Vegas District
(LB-AR-01-016, March 30, 2001)

Review of the Violence Prevention and Response Programs in the Spokane District
(LC-AR-01-001, March 29, 2001)

Review of the Violence Prevention and Response Programs in the Alaska District
(LC-AR-01-002, March 29, 2001)

Review of the Violence Prevention and Response Programs in the Big Sky District
(LC-AR-01-003, March 29, 2001)

Review of the Violence Prevention and Response Programs in the Colorado/Wyoming
District (LC-AR-01-005, March 30, 2001)

Review of the Violence Prevention and Response Programs in the Arizona District
(LC-AR-01-006, March 30, 2001)




                                                   14
                                         Restricted Information
National Capping Report on the Postal Service                     LB-AR-01-020
 Violence Prevention and Response Programs


                   APPENDIX B. MANAGEMENT’S COMMENTS




                                                   15
                                         Restricted Information
National Capping Report on the Postal Service                     LB-AR-01-020
 Violence Prevention and Response Programs




                                                   16
                                         Restricted Information
National Capping Report on the Postal Service                     LB-AR-01-020
 Violence Prevention and Response Programs




                                                   17
                                         Restricted Information
